<html>
<title> - CHALLENGE TO EUROPE: THE GROWING REFUGEE CRISIS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         CHALLENGE TO EUROPE: 
                       THE GROWING REFUGEE CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2015

                               __________

                           Serial No. 114-119

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-462PDF                    WASHINGTON : 2015                        
                                 
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Gary Shiffman, Ph.D., adjunct professor, Center for Security 
  Studies, Georgetown University.................................     4
V. Bradley Lewis, Ph.D., associate professor, School of 
  Philosophy, The Catholic University of America.................    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Gary Shiffman, Ph.D.: Prepared statement.........................     7
V. Bradley Lewis, Ph.D.: Prepared statement......................    16

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37

 
            CHALLENGE TO EUROPE: THE GROWING REFUGEE CRISIS

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2015

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2200, Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order this hearing of the 
Europe, Eurasia, and Emerging Threats Subcommittee. As we begin 
today, I want to note that Congressman Meeks, the 
subcommittee's ranking member, is not with us today. He is 
recovering from a small, a minor, heart attack. We are 
grateful, very, very grateful, that it is a small one, and that 
he is on his way to recovery. He is on the mend, and we are 
looking forward to having him back with us very soon. I know I 
speak for all my colleagues, and we wish him the very, very 
best.
    Turning the topic to this afternoon's hearing, I want to 
apologize for being late, but that is what happens when you 
have to do these hearings around votes.
    The topic of this afternoon's hearing is a massive and 
increasing tide of asylum seekers, economic vibrance, stateless 
persons, and displaced people who have been and continue to 
enter Europe as we have seen, all seen, in the videos and news 
reports.
    Migrants fleeing to Europe, they have been an issue of 
humanitarian concern for several years, but a wave of 
immigration erupted into a tsunami this summer, when the German 
Government announced it would ignore the Dublin rules and 
accept all Syrian refugees that made it to the German border. 
That announcement opened the gates for a flow of people to move 
from North Africa, the Middle East, and even Asia to transit 
through Greece, Turkey, the Balkans, and northward into Europe. 
With some notable exceptions, countries have simply facilitated 
the movement of migrants through their territory as quickly as 
possible, sometimes working to register the asylum seekers and 
sometimes not.
    While individual stories of tragedy and humanitarian need 
are compelling, the aggregate number of people on the move is 
overwhelming. Earlier this week, the United Nations announced 
that 218,000 migrants crossed the Mediterranean Sea to Europe 
just last month. That is more than were recorded in all of 
2014. It is expected that around 1 million asylum seekers of 
all origins will reach Germany in this year alone.
    Germany and the EU are deeply divided about how to stem the 
flow of migrants, and what to do with those who have already 
entered. Clearly, what we have seen over the past few months is 
unsustainable, and if not checked, will change the fundamental 
nature of European countries, which are now being inundated.
    What we are witnessing is the destruction of western 
civilization, not by an armed invasion, but instead, through 
envelopment. The effects of this will not soon disappear, but 
instead, could well turn out to be an historic change in the 
nature of many European countries.
    Europe has been struggling to assimilate large Muslim 
populations, they have seen this in Europe. Increasing examples 
of anti-Semitism and radical Islamic violence clearly speak to 
the challenge of integration and the risk of failure in this 
situation. And that was before, of course, all of these--what 
we are talking about, these reports of this violence, and anti-
Semitism, was before the current flow of immigrants began. 
Chancellor Merkel is full of confidence that Germany can 
educate, train, and turn refugees into productive and 
contributing members of society, but that is a tall task by any 
measure.
    Even the most optimistic scenarios say that Europe will 
have to redirect billions and billions of dollars from 
supporting their own citizens, to accommodating the needs of 
these refugees.
    I hope in our conversation today. We can examine and 
discuss, the massive influx of people into the Europe and what 
will be the consequences for European society, culture, and 
political institutions.
    Without objection, all members will have 5 legislative days 
to submit additional written questions and extraneous materials 
for the record.
    And I now will turn to Mr. Sires, who will give us his 
opening statement.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing on the migration and refugee crisis facing Europe, 
which many consider the worst migration and refugee crisis 
Europe has faced since World War II.
    What is with the sound system?
    Most of the migration is from refugees fleeing war-torn 
countries like Syria. The surge of migrants and refugees have 
significantly challenged and divided Europe, European 
countries, and the European Union. Many of the frontline 
states, such as Greece and Italy, find themselves overburdened 
with the influx of refugees and lack of sufficient resources to 
properly register and accommodate refugees and migrants.
    It is clear that the EU and Europe, as a whole, must do a 
better job of coordinating efforts across its borders to manage 
the large number of people in a humane manner. As we work with 
our European partners to respond to the refugee crisis, we must 
remember the total influx of people our borders can cost. We 
have struggled with our own borders to absorb the surge of 
women and children fleeing violence in Central America. We have 
learned firsthand the importance of providing a response to 
these victims that is both timely and humane. Most importantly, 
these crises remind us that we can't lose sight of addressing 
the root causes of migration and finding a political solution 
to the war in Syria.
    America has a long history of helping the world's most 
vulnerable people, and other countries look to the U.S. to lead 
when it comes to the refugees' resettlement. The administration 
recently announced that to accept 10,000 Syrian refugees, was 
the first sign of a goodwill to those that are desperate to 
flee the turmoil, but we can do much more.
    In addition to increasing the number of refugees we accept 
on Syria, we can draw our own experience--to draw our own 
experiences and challenges regarding border security and 
provide assistance and increased coordination to our European 
allies to help them cope with the number of migrants and 
refugees.
    I look toward to hearing from our esteemed panel of 
witnesses on the best path forward.
    Thank you, Mr. Chairman, for holding the hearing.
    Mr. Rohrabacher. Does anyone else have an opening 
statement?
    Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Chairman, the crisis in Europe has resulted in 
thousands of refugees going to Europe, and not all of the 
people going into Europe are trying to escape the Syrian war. 
Now we understand there are people from all over the Middle 
East, even as far away as Afghanistan, and all fleeing, looking 
to move to Europe for various reasons. Not all of them are 
seeking asylum or refugee status, but may have other motives in 
mind as well.
    I think part of the reason folks were moving so quick out 
of the Middle East and Syria is because Russia has gotten 
involved in Syria and is propping up Assad, trying to make sure 
he sticks around. And people see that their lives are in 
danger, so they leave the area.
    Obviously, Europe was not prepared for this tremendous 
influx of thousands and thousands of other people. I am not 
sure that Europe has figured out a way to handle it, and I am 
sure the United States, in my opinion, is not doing much to 
help in the crisis. Some countries take various positions on 
what to do with the migrants, let them pass through or maybe 
not even let them come into their country. One such example is 
Hungary, who is trying to protect the national sovereignty of 
its own country. And the United States, rather than try to 
understand the situation in Hungary, even last week the U.S. 
Ambassador dressed down the Hungarians for what the State 
Department believed was not the right course in dealing with 
migrants. That does nothing to help our relationship with 
Hungary, a NATO ally.
    It is obvious that there has to be something to be done 
with these thousands of individuals and where they are going 
and how long are they going to stay? And what is the United 
States going to do to help in this crisis? And I am sure that 
our witnesses have all the answers to these questions. That is 
why they are here. So I will thank the chairman, and I yield 
back.
    Mr. Rohrabacher. Mr. Weber, do you have an opening 
statement?
    Mr. Weber. We are good to go.
    Mr. Rohrabacher. Good to go?
    Mr. Weber. Yes.
    Mr. Rohrabacher. And I notice Ms. Frankel is as well.
    Let me note that before we start, we have with us the 
distinguished Ambassador from Hungary. Thank you for joining us 
today. We appreciate that.
    And let me just say that Hungary has been a tremendous 
friend and asset to the peace and stability of the world, and I 
am personally upset that our administration has sought to find 
out and try to complain about every little thing they disagree 
with, with Hungary. Hungary has every right to set their own 
policies, and I am pleased that Hungary has a track record of 
doing good things with the United States. So we thank you.
    This is also the anniversary of the Hungarian revolution. 
And all of us who fought communism for decades were inspired by 
the young people and others who rose up against the communist 
dictatorship in Budapest back in 1956. So that is--is that 60 
years?
    Mr. Poe. You were there.
    Mr. Rohrabacher. I was there. That was a little bit later.
    But anyway, with that said, we have two really fine 
witnesses with us today. I would ask if you could try to get it 
to 5 minutes, and then we will have a nice dialogue on that.
    I would like to introduce Dr. Gary Shiffman. He is a 
professor of security studies, Department of Georgetown 
University. His work focuses on exploring the relationship 
between economics and national security. Dr. Shiffman is also 
the founder of Giant Oak Incorporated, a company that meets the 
demand for social science-driven innovation in big data 
environments like institutions countering organized crime, 
money laundering, trafficking, insurgency, and terrorism. It is 
a pleasure to have Dr. Shiffman here to speak with us on this 
very important topic.
    Also, we have with us Dr. V. Bradley Lewis. He serves as 
associate professor in the School of Philosophy at Catholic 
University of America, where he has taught for nearly two 
decades. He also serves as associate editor of the American 
Journal of Jurisprudence. Dr. Lewis specializes in political 
philosophy, Plato, legal philosophy, and natural law theory. We 
are delighted to have Dr. Lewis with us today.
    And, again, I ask if Dr. Lewis and Dr. Shiffman could keep 
it to about 5 minutes, and we will have a nice dialogue. So 
thank you very much.
    Dr. Shiffman, Gary, you may go first.

STATEMENT OF GARY SHIFFMAN, PH.D, ADJUNCT PROFESSOR, CENTER FOR 
            SECURITY STUDIES, GEORGETOWN UNIVERSITY

    Mr. Shiffman. Thank you, distinguished members of the 
subcommittee, for inviting me to provide testimony today on the 
economic views of security implications of the security----
    Mr. Rohrabacher. You have to push the button.
    Mr. Shiffman. Okay. Is that better? There we go.
    I can offer two distinct perspectives on this challenge. 
First, as a behavioral scientist and as a former senior 
official at U.S. Customs and Border Protections, I have spent a 
lot of time thinking about how understanding essential 
characteristics of human behavior can inform our understanding 
of organized violence.
    I have divided my comments today into three sections. The 
first provides an economist's view of a way to think about 
security and the refugees. The second discusses my experience 
as a practitioner of national and Homeland Security. And third 
suggests a framework for policy options.
    One, a behavioral economist's perspective. Economists see 
all human interactions as exchanges taking place within 
markets, with individuals regardless of race, religion, or 
ethnicity, making decisions that maximize welfare for 
ourselves, our families, and our communities. Competitive 
marketplaces demand cooperation in order to maximize our goals, 
leading individuals to divide the world into us and them. 
Political violence, such as insurgency and terrorism, occurs 
when scarce conditions allow violence to become economically 
feasible. In other words, people choose violence when it is the 
best way to achieve their goals in the face of scarce 
resources.
    In Europe today, continuing mass refugee streams will 
continue to strain resources of European populations, creating 
conditions of scarcity that highlight competition and sharpen 
divides between host and refugee, between us and them.
    As we may have predicted, we are witnessing political 
parties and viewing rhetoric with divisive language 
manipulating us versus them narratives and exacerbating 
tensions. This increasingly divisive rhetoric recalls 
historical examples of politicians using hate-creating stories 
to discredit opponents and better their own positions. Harvard 
economist, Edward Glaeser, points to three examples: Anti-Black 
hatred in the American South, anti-Semitism in Europe, and 
anti-Americanism in the Arab world. These hateful narratives 
lead Glaeser to point out that when populations are socially 
isolated and politically relevant, stories of hatred are likely 
to take hold and recruitment and violence can follow.
    European States and the EU stand at a crossroads between 
becoming a melting pot or remaining a federation of nations 
with distinct national ethnic and religious identities. The 
economists view would suggest that regardless of the choice, 
policies that create politically relevant and socially isolated 
populations be avoided. So how do we do this? Section 2, 
reflections of the practitioner.
    Regarding security challenges, we focus on two primary 
vectors. First, the possibility for terrorists to embed 
themselves within refugee streams and the potential for 
radicalization among refugee communities. High levels of single 
men in the refugee populations raises concerns that extremist 
groups, such as ISIL, have embedded members in the refugee 
streams. Existing radicalization of European societies coupled 
with the widening gulf between host and guest communities 
raises real concerns on the potential for refugees to 
radicalize and become violent.
    With regard to border security, the United States offers an 
opportunity for comparison. The United States screens for 
terrorist risk factors throughout the screening and asylum 
processes. The United States does a good job of integrating 
immigrants and refugees when they arrive, and significantly, 
the United States does not require border states to take full 
responsibility for border security costs. Instead, the bulk of 
the responsibility is shared across the entire tax base of all 
States. This poses a comparative question: Is the European 
Union, as a collective, capable of sharing the costs and the 
benefits of screening and integration? To what extent should 
border states such as Hungary and Slovenia bear the brunt of 
this responsibility?
    Section 3, some thoughts on the response framework. The 
European Union is capable of benefiting from the refugee 
streams if it approaches the refugees as a source of needed 
workers while managing risk. Despite this potential benefit, EU 
member states may not have the capacity to address the speed 
and scale of the current flows either from a fiscal or a 
security standpoint, especially in the border states where the 
initial asylum claims are made.
    Issues of preserving national identity are real and must be 
treated as legitimate policy goals. As a result, governments 
will need to choose who is permitted to enter Europe by 
increasing screening measures limiting entry and sharing the 
fiscal responsibilities. Screening measures might be improved 
through cooperation and data analysis. Limiting entry might 
focus either on the most vulnerable population, such as women 
and children, or on populations fleeing from ISIL-controlled 
areas. And in integrating refugee populations into the labor 
force might mitigate fears of radicalization by avoiding 
isolation and minimizing social welfare costs.
    So my three key takeaways, first, regardless of the 
decision made on numbers and locations of refugee flows, 
threats may emanate from socially isolated and politically 
relevant populations.
    Two, the EU can manage risks associated with terrorism and 
other organized violence, but perhaps not each member state 
possesses the capacities, so we need to think about shared 
costs and benefits.
    And three, the EU is capable of benefiting from the refugee 
streams if it approaches the problem as an opportunity to 
integrate a needed workforce. Thank you.
    Mr. Rohrabacher. Mr. Lewis.
    [The prepared statement of Mr. Shiffman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              


  STATEMENT OF V. BRADLEY LEWIS, PH.D., ASSOCIATE PROFESSOR, 
    SCHOOL OF PHILOSOPHY, THE CATHOLIC UNIVERSITY OF AMERICA

    Mr. Lewis. Thank you. Chairman Rohrabacher, and members of 
the subcommittee. It isn't often that a political philosopher 
is invited to speak to a congressional committee, and I am 
honored by your invitation.
    I have been asked to speak about the present migration 
crisis in Europe from the perspective of political philosophy. 
Much of what we need to know about the migration crisis is 
simply empirical. How many persons are involved? Where are they 
from? Why are they migrating? Et cetera. Philosophy has little 
to say about these questions. Rather, political philosophy is 
the business of understanding what principles or reasons should 
guide our political conduct and shape our institutions and 
laws; what are the starting points for our thinking about our 
actions as persons and communities? Our starting points are 
actual goods that direct all of our practical reasoning. 
Political philosophy must also be attentive to truths about how 
human beings characteristically behave; that is, about the 
stable aspects of human nature.
    Political communities provide a context for individuals and 
groups to pursue their own development. This context includes 
especially legal systems that authoritatively coordinate the 
actions and interactions of persons and groups. Political 
communities are required by and justified by the common good of 
the people who constitute them. By common good I mean, first, 
the integral development and flourishing of the persons who 
live in the community and, secondly, the whole ensemble of 
conditions that facilitate that development. It is these things 
that justify but also limit the exercise of political 
authority.
    Among the conditions required for persons in groups to 
thrive, are the availability of resources, and these resources 
first come from the earth itself. And no things, no products 
from the earth, no parts of it, naturally and originally, 
belong to any particular persons; however, human nature 
suggests that those things are best maintained when they are 
shared out in some distribution of private property.
    And I believe that this explanation of private property is 
also the sound reason for the existence of different 
territorial political communities. Governments and their 
constituents together are analogous to property owners in the 
sense that they represent a determinate agency responsible for 
the maintenance of the necessary conditions in a recognized 
territory or jurisdiction, justified by the directedness of the 
agency and those conditions to the common good of their people.
    Public order, the security of persons, both individuals and 
groups and their property and freedom, are essential elements 
of the common good and are best protected by particular 
governments with clear jurisdictions. The common good is more 
than merely a set of laws and institutions. It includes a 
common culture, among the elements of which are, for example, a 
common language, at least one common language, and shared 
sentiments of attachment and common membership. Such sentiments 
are an indispensable support for the maintenance of legal and 
political institutions and make possible the sacrifices that 
are necessary for the preservation of any political community 
over time. This is especially the case with respect to modern 
democracies, which tend to be large and which often encompass 
considerable diversity of ethnicity, religious faith, and moral 
views among their populations, in addition to the social 
mobility and dynamism characteristic of modern economies.
    The role of shared practices, values, and sentiments in the 
maintenance of stable political communities that really do 
promote the common good of their citizens was known to Plato 
and Aristotle at the very beginning of the tradition. Aristotle 
in particular elaborated the notion of political friendship 
based on a fundamental agreement, or like-mindedness, about the 
purpose, structure, and practices of the political system.
    In the 19th Century, Alexis de Tocqueville famously made 
the habits and mores of the people central to his accounts of 
how democratic political institutions were maintained in the 
United States.
    The willingness of citizens not only to defend one another 
through military service, but also to consent in the sort of 
redistributive taxation common to contemporary welfare states 
assumes a sense of common membership and shared values and 
sentiments. Without these things, the maintenance of 
communities and their institutions would require the 
application of coercive force on a far greater scale than we 
associate with free societies.
    Similarly, among these supports for free governments, are 
more generic but nevertheless, dearly bought values like the 
rule of law, an atmosphere in which legal and natural rights of 
persons are acknowledged and protected by the law with habits 
of civility and mutual forbearance that are informed by civic 
and political friendship.
    The common good of the political community is challenged, 
if not threatened, by the sudden and disorderly influx of large 
numbers of foreigners. And so the very common good that 
justifies political authority also justifies, I would say 
requires, government's concern about who enters their 
territory, and even more importantly, about the assimilation of 
immigrants into the community. Both the need to protect public 
order and the need to assimilate, justify concern about the 
number of immigrants into the country and their character.
    A large group of immigrants who come predominantly from a 
distinct region of the world with its own culture that is 
significantly different from that of their country of 
destination presents an obvious challenge that no government 
could responsibly ignore. Indeed, there may be particularly 
urgent concerns if the immigrant group contains large numbers 
of persons who are from places where genuine political 
community has not emerged and more social life is still 
dominated by family and tribal loyalties, or who are reasonably 
believed to hold views that are inconsistent with democratic 
political institutions and the protection of basic human 
rights, especially the equal legal rights of women and 
religious freedom.
    Large numbers hastily or heedlessly admitted cannot only 
strain a country's material infrastructure of social support, 
but its legal system and larger political culture. Moreover, it 
could set in motion changes, the full import of which may not 
be immediately apparent but which could lead to various forms 
of social and political instability later.
    The collision we witness today in Europe of immense numbers 
of immigrants from a distinct civilization with a demographic 
collapse of Western European countries, countries with birth 
rates well below replacement levels, cannot but have far-
reaching consequences not only for the internal politics of 
those countries, but also for the neighboring countries of 
Central and Eastern Europe and at some stage for the United 
States as well. Since we cannot now know what kind of political 
pressure may eventually brought to bear on those countries' 
governments relative to the character and future of the Western 
alliance. Thank you.
    Mr. Rohrabacher. Well, thank you very much.
    [The prepared statement of Mr. Lewis follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. This has been more philosophical than I 
expected, but that is fine.
    I wonder, Mr. Lewis, do you think that Merkel reads 
Aristotle? Is that part of what the decisionmaking process, or 
do you think people there are just trying to cope with a crisis 
of the moment?
    Mr. Lewis. I don't know much more about the chancellor's 
thinking than I read in the newspapers. And my impression is 
that she is coping with a very difficult and stressful 
situation. But I think it is becoming clear that the strains 
that are resulting from this are going to have political 
consequences for her, but are already having consequences for 
other countries. So I don't know on what basis she is making 
these decisions, but I think it is probably very 
improvisational.
    Mr. Rohrabacher. Dr. Shiffman, do you see this influx, and 
it was interesting you went down to an analysis of when 
violence happens, and when you put these factors together that 
we now see as the new reality in Europe, is by your analysis, 
is that then going to be--that will result in violence one way 
or the other in the months and years to come?
    Mr. Shiffman. Mr. Chairman, I hope not. First, let me say 
this is the most esoteric congressional hearing probably in a 
long time. So I appreciate the committee taking on these sort 
of more philosophical ideas.
    The idea that Professor Lewis was talking about and how 
that merges with what I am talking about is, you know, these 
ideas that create cohesion among the society are important, and 
this is what allows for the provision of public goods and peace 
and stability. And all of that is absolutely at risk right now. 
You are absolutely right, as you said in your opening 
statement.
    What I tried to point to in my comments are, well, you 
know, if you are not able to stem the flow, then what are the 
things that we need to think about? And we need to think about 
this idea of social isolation and political relevance. That is 
what sort of the economic literature would suggest. What that 
means is, and if you look at some of the examples that I cited, 
you have got this group that doesn't integrate, that is seen as 
outsiders, they are seen as others, they are not us; they are 
them, but they might be in sort of in my country now, and there 
might be some detriment to me from them being here. And that is 
a great opportunity for what I would call entrepreneur as a 
violence, to step forward and talk about, you know, recruitment 
and inciting things that we don't want to see. So those are the 
things I would point to.
    Mr. Rohrabacher. Well, we did see, here in our own country, 
where we had some people, young men, who immigrated from 
Chechnya and leaving their roots behind to come here to live in 
a freer and more benevolent society and ended up committing a 
brutal act of terrorism and murdering some of our fellow 
citizens.
    In terms of prefacing your remarks, stemming the flow, I, 
just for the record, I think that Hungary was totally justified 
in what it is doing to try to stem the flow. And, frankly, if 
our European allies are not willing to stem the flow of large 
numbers of people who are not native to their territory, they 
will lose their territory.
    And let me note, I believe that is true of the United 
States as well. And we can be proud that we bring in 1 million 
people, immigrants, into our country every year, more than 
every other country of the world combined in terms of legal 
immigration, but we are making sure that--as you noted in your 
testimony, that we have a screening process, and we are 
bringing people in who then can be enculturated and assimilated 
into our society. That is, according to your testimony will, I 
will say, minimize the chance of some kind of damage.
    Mr. Shiffman. That is right.
    Mr. Rohrabacher. I don't think that is possible in Europe. 
Do you have a comment on what is going on there now in 
relationship--are these going to be on assimilated populations 
which will then lead to violence? I will turn to both of you.
    Mr. Shiffman. I don't want to comment on the specifics of, 
you know, any particular European country and what they are 
doing, but I think from the reading of the newspapers, 
absolutely, this is something that we need to be concerned 
about, and that is why I am flagging it in my testimony for you 
all, is to the extent that the flow is too fast, and you can't 
do proper screening and vetting, that is the first threat 
factor, which is sort of the terrorist integrating within the 
flow.
    And then the second is, even when they enter, they are not 
ISIS affiliated once the threat from radicalization. And that 
is where I point to those two ideas of socially isolated and 
politically relevant. And that is something, if we can't slow 
it down--well, I mean we have to worry about whether we slow it 
down or not, but those are the things that I suggest the 
committee think about as they hear further testimony from other 
folks more expert on the specific policies of the European 
Union.
    Mr. Rohrabacher. Would you like to comment on that, Dr. 
Lewis?
    Mr. Lewis. I would simply underline points that both of us 
have mentioned about the importance of assimilation and the 
problem, in the particular case we are talking about here, is 
the numbers of people in the short period of time in which they 
are coming in. They are talking about possibly of as many as 
1\1/2\ million refugees into Germany just this year, and I 
think one has to remember that is on top of millions of 
refugees that have come in in the last 5, 6, 7 years. Germany 
is a country of 80 million people, so you can do the math; at a 
certain point, the percentage creeps up, and the question of 
the ability to assimilate those immigrants is crucial. The 
United States is a much larger country. And historically, I 
think we have done a much better job of assimilating immigrants 
than the European countries have.
    Mr. Rohrabacher. Well, we, of course, have a culture that 
is a multi--we accept everybody in. That is what our culture is 
all about, is being proud of the individual rights that people 
have in terms of their own backgrounds. So that is not 
necessarily what keeps the European cultures together, their 
belief in--our belief in liberty and our belief in human 
rights, are supposed to be something that units us as 
Americans. In other areas, they have cultural elements that 
unit them as a people, a particular religion and some 
particular customs that they have.
    I think that Europe, frankly, this massive influx is going 
to be, as I mentioned in my opening statement, I believe is 
going to change the very nature of Europe. And we have seen an 
historic event, and I believe based on the fact that people are 
not courageous enough to control their own borders will soon 
lose their country. There will be some other people there, and 
people who will have different values and different cultures, 
and that could happen in the United States as well.
    With that said, Mr. Sires, would you like to have your 
time?
    Would you like to use my microphone here?
    Mr. Sires. Absolutely.
    Mr. Rohrabacher. There you go.
    Mr. Sires. Thank you.
    Well, having been a refugee myself at the age of 11 and 
coming to this country, I can tell you from experience that I 
think the assimilation process in this country has a way of 
absorbing you and making you part of this country. And if you 
talk to my brother and my younger brother, who was born here, I 
mean, they have very little remnants of what it was to grow up 
in Cuba like I did. I came over when I was 11 years old.
    My concern, I mean, is that these countries do not have the 
welcoming that this country has for these refugees. And I 
understand that, because these are not large countries. And if 
you have an influx of people, very different from your culture, 
they stand to congregate and basically stand apart from the 
rest of the country, which I think eventually is going to hurt 
those countries. Because they will want to keep their own 
culture. They do not want to be part of the country that they 
are in. I don't know. This country here is very different. You 
want to be part of this country, at least that was in my 
family.
    And I can see where Hungary would want to close its 
borders. It is not a large country. They don't have the 
resources. I can see for some of the other countries closing 
their borders. It is a very different situation that we have 
here.
    Now, Germany needs workers, but I think even now they are 
starting to rethink the amount of people that they need and the 
amount of people they are going to accept.
    And, you know, my question is, which of the countries have 
been most impacted--what countries have been most impacted by 
this influx of refugees? Dr. Shiffman?
    Mr. Shiffman. So let me address your first point, 
Congressman, which is there is--putting this back into economic 
terms, right, there is a tradeoff. Everything is a tradeoff. 
And, you know, in the United States, we have the melting pot, 
the phrase I used in my testimony. We have this identity of we 
are the melting pot. We have hyphenated Americans, and that is 
fine. Right? I am a Cuban-American, a Russian-American, a 
whatever-American, and that is welcoming here. And that is a 
wonderful thing. And that has led to what makes us great, as 
the chairman said, and that also contributes to economic growth 
and development and GDP growth and trade and all of these other 
things.
    There is a tradeoff that European States have to make right 
now, which is, they need the workers, but that is going to--
they can get workers, and they can get GDP growth; they can get 
economic growth at the cost of that melting pot. Right? And are 
the European States really ready for a melting pot approach? Do 
they want hyphenated, you know, fill in the blank, or do they 
want to keep their national identity? That is the nature of the 
tradeoff right now.
    My third point is that there is an economic opportunity 
here. Right? There is an opportunity for increasing GDP growth, 
but it is going to cost you culturally. It is going to cost you 
ethnically and nationally, and that may not be what people are 
willing to do. And I don't think they are. And if that is the 
case, then, you know, the rest of my testimony was, well, how 
do we address what really might backfire on us, which is, where 
is the violence going to come from. And that is what I think we 
need to focus on.
    Mr. Sires. And I think the influx has been so quickly, so 
many, that the security issue is very important.
    Mr. Shiffman. Right.
    Mr. Sires. I remember as a boy when my father was taken 
away when we first arrived for about 4 or 5 days. And they went 
through--my father went through a whole process, did you 
participate in the communist party? Were you involved in the 
communist party back then. And then after, you know, after the 
4 or 5 days, he was returned to us.
    I don't think these countries have any way of screening the 
people that are going through there like what we went through 
when I first arrived here.
    So to me, I agree with the notion that these countries 
could be taking in some people that are going to basically try 
to disrupt our country or disrupt Europe. And for those 
countries, it is very difficult to keep letting people in the 
countries who are not screened like they were.
    Mr. Shiffman. So my quick response, in the U.S., the reason 
we build walls on our border is to slow the flow and to direct 
the flow where we can screen people. That is why we have walls 
on the U.S. borders. If you look at high-density urban 
populations without a wall, people are run across the U.S.-
Mexican border and within 60 seconds they are in a safe house. 
We put a wall up, slows them down, so they have to get through 
the deserts of Arizona or they have to go through a point of 
entry. So walls make sense when it comes to securing borders. 
That is a good thing.
    And so when we see it applied in Europe, it is the same 
idea. The broader point I tried to make in my testimony also 
is, this isn't a Texas problem. This is a U.S. problem. So when 
we think about Europe, we need to think about how do we stem 
the flow? How do we slow it down? How do we get control of it? 
How do we do screening in a way that it is not just Hungary's 
problem, but it is something that is collectively addressed 
both in the costs and the benefits side.
    Mr. Sires. The other aspect of this is that I think people 
who come here eventually want to become American citizens and 
participate in the process. I know my grandmother was 83 years 
old when she first became a citizen so she can vote for her 
grandson. You know, she never learned the language.
    Mr. Poe. Did she vote for you?
    Mr. Sires. Absolutely. More than once.
    But, you know, it was a process. And no matter how much you 
try to teach her English or everything, she would never learn 
it. And my mother used to say that if she ever lost this finger 
in this country, she be a mute. Because she used to go to the 
store and say one, one, that is how she bought things. But, you 
know, you assimilate. And this country has a way of just taking 
you in.
    I don't think these countries have that capacity, and I 
don't know if the people--and we want it to be assimilated, 
quite frankly. And those people that are going to those 
countries, I don't know if they want to be assimilated. Would 
you agree with that, Dr. Lewis?
    Mr. Lewis. Yes. I think that is a real question at the 
moment. I mean, there are two important things here I would 
mention. One is that the influx of refugees, which is quite 
heavy here at the moment, comes in combination with the 
demographic problems, the loss of growth, the natural fertility 
in most Western European countries, well below replacement, and 
that is why they need workers from the outside. But what is 
crucial is to have an orderly process of immigration.
    My wife's grandparents came over here from Italy, and her 
father, who grew up here with those parents became a decorated 
veteran of World War II, loved the United States. He learned 
that being here, acquired those sentiments of attachment to the 
country and willingness to sacrifice for it. That takes time, 
and it requires a kind of orderly process, and that is what is 
not there.
    Mr. Sires. That is not there. The absorption in those 
countries is not there either like it is here. You know, for 
some reason, you know, we drink espresso, but then we like 
coffee, too.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. All right. Let's just note that Cuban-
Americans have done pretty well, and they have done so well in 
assimilating that I predict that there will be a Cuban-American 
that is President of the United States, but I won't tell you 
which one.
    And let me also just note here, when we were talking about 
the assimilation of people in the United States in the last 50 
years during the Cold War. I mentioned the Hungarian uprising. 
The people who came here during the Cold War, and there were 
many, many people who were escaping communism came here. They 
came here and helped us to thwart this evil theory of communism 
that threatened world peace. Their assimilation helped us, as 
Americans, understand when our neighbors saying oh, my gosh, 
they won't even let people worship God the way they want in 
communist countries, that alerted the American people to a 
threat.
    Unfortunately, what it appears, that many of the people who 
are arriving here from the Middle East, who are Islamic, are 
not here as enemies of the radical Islam that drove them here. 
And, in fact, just the opposite. Sometimes you have people who 
come here and expect that they are going to have their women 
covered up. And quite frankly, I think that is an insult to our 
values as a people, and not to mention people who come here 
from Islamic countries who think they can still have honor 
killings and things such as this.
    That's not assimilation, and that is a threat to--and on 
top of it, unlike the Cubans, who came here, who are enemies of 
communism, these people aren't necessarily enemies--well they 
are not enemies at all of Islam. And I am not saying people of 
Islam is the enemy, but certainly radical Islam is. And anybody 
who comes here should be part of the team. And I could say, 
Cuban-Americans, we are proud of you guys. I mean, Cuban-
Americans have do so much for our country as so many of our 
immigrants that are coming from elsewhere, like your father 
from--your father-in-law from Italy and such.
    And I will leave that with Judge Poe, who has got some 
insights for us as well.
    Mr. Poe. Thank you, Mr. Chairman. And thank you, all, for 
being here.
    Professor Lewis, I am intrigued that you study and teach 
natural law. I didn't know anybody did that in the country 
anymore. I am a great fan of natural law and the history, 
especially of the founding of our country under the theory of 
natural law.
    I have been to Turkey, and I have seen the refugee camps. 
The one I was in had about 180,000 people from Syria. And this 
problem is increasing because, of course, of the situation that 
we are all aware of in Syria where you have got Assad, you have 
got rebels, a mixed bag of a bunch of folks, we don't know who 
they all are, and then we have ISIS all in there trying to 
control it, and the Russians come in trying to make a power 
struggle, and everybody's running for the hills.
    The people coming into Europe, we don't know who they all 
are, because we don't know who they are. And it seems to me 
that they are everybody. They are those genuine refugees that 
are running for their lives because of Assad or ISIS. They are 
people looking for economic opportunities. They are people who 
are coming into Europe maybe to cause mischief, but various 
reasons. And if I understand what has been reported about their 
migration, the goal seems to be for a large amount of them to 
go into Europe, Eastern Europe, move into Germany and then even 
move up into the Nordic State. And there is no end in sight 
until we run out of people.
    I read some estimates that there are going to be 5 million 
folks moving into Europe. I don't know if that is true or not, 
but it is a lot of folks coming in. There is no unified plan on 
what to do with all those people or who is going to pay for it.
    One of the, I think, issues of any nation is to protect its 
sovereignty or its integrity, however you want to define that. 
But part of that is knowing who comes into their country and 
deciding whether they can stay or not. But the main thing, know 
who they are, identify them. And early on, it looked like 
people were just coming in into Europe and going wherever they 
can get and never did know who they were.
    I think countries like the border European Union countries, 
specifically like Hungary, not only have a right but an 
obligation to find out who is coming into their country. For 
the U.S. to second-guess them and belittle them, and our soap 
opera Ambassador dressing them down last week, I thought that 
was a big mistake. Because, if I understand the way the system 
works, if a country identifies someone at their border as a 
refugee, and the person keeps moving, let's say to Germany, 
gets to Germany, Germany may have the ability, authority to 
send them back to the original border entry country.
    Is that your understanding, either one of you all? Under 
the current agreement in the European Union? Do either one of 
you know?
    Mr. Lewis. The current rules, the Dublin rules, I think, 
have been largely dispensed with. I think those were the rules, 
but I think there really aren't many rules at the moment----
    Mr. Poe. So we don't have any--we don't know what could 
happen to the migrant that gets all the way to Germany or to 
France or Sweden and that country decides, you are not staying 
here. They go back to where they came from or the original 
entry country. That seems to me to promote just chaos in 
Europe.
    Europe is, what, 500 million; United States is 360 million 
or so. And you have lots of people coming in. It would just 
seem to me that nations would have the authority to identify 
and track and find out who is coming in. And then as my friend 
from New York pointed out, what is the purpose of folks coming 
in? Are they coming in to assimilate into whatever country, or 
are they coming in to form another culture in the country? I 
think France has found that they have had this problem with 
assimilation of people who come to their country.
    So I guess my question is, what should the United States be 
doing? And we are observing and criticizing, but what should we 
be doing about this migration issue in Europe?
    Mr. Shiffman. So, Judge Poe, I agree with the way you have 
laid it out very nicely. The direct concern to the United 
States is so, to the extent this happens and these folks' mass 
migrations happen into Europe, they are now in visa waiver 
countries, and so they now come into the United States. So this 
very quickly becomes a United States, you know, national 
security issue. So we absolutely have an interest in this 
immediately.
    My comments about the way Europe could handle this better 
is to look at some of the things that we have learned here. 
First of all, the border states aren't solely responsible for 
this. Right?
    Mr. Poe. You mean financially?
    Mr. Shiffman. Financially. Fiscally. Right? You know, 
looking at the border states----
    Mr. Poe. And right now, is it your understanding that the 
border--every country is kind of on their own as far as paying 
for the migrants that are there?
    Mr. Shiffman. Again, with the caveat I am not an EU 
follower, that is my understanding that the burden is falling 
disproportionately on the border states for doing that 
screening, which makes absolutely no sense for U.S. national 
security, let alone for Europe's national security.
    As you said, we need to, to use your phrase, which I like, 
we have to know first and foremost who it is, and second, why 
they are coming. We are not built to do that right now in 
Europe, and it seems what the United States needs to do is be a 
part of fixing that. Right? This is----
    Mr. Poe. I am going to send you over there with your 
expertise in ICE and border security.
    Mr. Shiffman. Well, you know, the United States Government 
knows an awful lot about border security. I was fortunate 
enough to be a part of the early days of DHS here. Lots of 
folks have experience that could be beneficial to the European 
Union. I think they need to address it as the European Union, 
though. This isn't Hungary's problem; this is EU's problem, and 
by extension the United States as well.
    Mr. Poe. I am about out of time, professor. In fact, I am. 
Do you want to weigh in on that?
    Mr. Lewis. Well, you know, the statement that I prepared, 
submitted ahead of time, one element of it is, that it is an 
absolute first responsibility of national governments to 
protect the common good of the people of those countries, to 
secure the rule of law and the protection of the fundamental 
rights of those people, and they have that. It is a very solemn 
obligation for the governing authority of any country. And now 
there is a natural tendency and a correct tendency to want to 
be generous and hospitable to immigrants; there are compelling 
humanitarian reasons for that. And I think, you know, the 
Germans have tried to do that, maybe overtried in some ways.
    But it has to be understood that the first responsibility 
of governments is to protect the security of their people. And 
some of these issues really, really could have an impact there. 
In just yesterday's Wall Street Journal, there was a story 
about forged passports and the market in forged passports, 
people coming into Europe now, usually what they do is 
apparently throw the passports away once they get to the 
country of destination, and then they are equipped with a whole 
new set of identity documents, which could then be used to 
travel to other places as well. There may be no way of knowing 
where they originally came from or what their intentions are. 
And it is a matter of internal security, a justified function 
of government to police that.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Ms. Frankel.
    Ms. Frankel. Thank you, very much. Well, you know, we could 
talk about border security and sovereign rights all day. But 
here is the cruel fact of it all: We are dealing with the worst 
humanitarian crisis in, what, since World War II. And these 
people, they have to go somewhere, because they are getting 
killed and tortured, and they are starving. It is a horrible 
situation.
    First question I would like you to comment--you know, 
answer, if you want to weigh in, which I think is important for 
our public to understand, and that is--because we are looking 
at all this afar, and I think we can understand the 
humanitarian part of this. I would like your opinion on what is 
happening now in Europe, how that would affect our own economic 
or national security here in the United States? What are the 
long-term implications?
    Mr. Shiffman. So, first, let me agree that this is--it is 
hard not to think of this first and foremost as a humanitarian 
crisis that we all have to take very seriously. And I think--
for myself, that was my first response, is well, as a national 
security professional, you are still sort of--the humanitarian 
component of this still comes first to mind.
    So, in my testimony, as I suggested, Ms. Frankel, there may 
be ways--if you are not going to let everybody in, and as Judge 
Poe said, not everybody is coming for the same reasons. Right? 
Not everybody is coming in because they are persecuted and 
fleeing for their lives. They see an opportunity to get into 
Europe, get into Northern Europe and get into a nice welfare 
State.
    Ms. Frankel. Right.
    Mr. Shiffman. So if we can screen out, which is hard to do, 
if we can screen out, then it makes sense to me to focus on the 
most vulnerable populations first, and that is something I 
think we know how to do. At least the United States knows how 
to do that.
    Ms. Frankel. Okay. Well, thank you for saying what you 
said. Maybe my question wasn't clear. I think it is important 
for our public here in the United States to understand that 
there are economic consequences and potential national security 
consequences if we ignore what is going on in Europe and in 
Syria and in other parts of the region that are affected by 
these refugees. I thought maybe you could comment on that?
    Mr. Shiffman. Sure. As I pointed out in my testimony, what 
concerns me is having unintegrated populations that have 
political relevance, and that is what I think historically, 
when we look back, tends to provide the opportunity for 
violence, definitely and stability.
    So as Professor Lewis said, right, these shared--the common 
good, the shared stories, the shared languages, these are 
always in which we integrate populations, as Mr. Sires said, we 
failed to do that. If they come in anyway, large numbers----
    Ms. Frankel. All right. I don't mean to interrupt you, but 
maybe this is just not in your area of expertise. That is not a 
criticism, all right. I mean, I think there are economic 
consequences and security consequences if we ignore what is 
going on, but not because we are afraid of terrorists coming 
in. I mean, quite frankly, I think most of the people who are 
being--that are fleeing Syria are innocent people who are good, 
decent people, and they are not going to threaten our lives. I 
think the bigger threat is we do nothing.
    So I will go to another subject then, all right. Which is--
and I think maybe Mr. Poe started to get into this with you, 
but do you think that the United States should give more 
financial aid toward the refugees that are now going into 
Europe? Because I know we are doing it in Syria; we are doing 
it in Lebanon. I mean, the displaced refugees in Syria and 
Lebanon and Jordan and Turkey. Do you have an opinion as to 
whether or not we should increase our efforts in Europe?
    Mr. Shiffman. No, ma'am. I don't know how much we are 
giving, and if it is----
    Ms. Frankel. Okay. So that is outside your----
    Mr. Shiffman. That is outside my----
    Ms. Frankel. And I guess our philosopher over here, you 
just--no comment?
    Mr. Lewis. No. I mean, the United States is a generous 
country, and I hope it continues to be generous, but as far as 
exactly how much money is available for what, I just don't 
know.
    Ms. Frankel. Okay. All right. You know what, but I did 
enjoy your testimony.
    And I think I will yield back, Mr. Chair.
    Mr. Rohrabacher. All right. Thank you very much.
    Mr. Weber.
    Mr. Weber. Dr. Lewis, you said in your prepared remarks, 
and I am paraphrasing, that private property doesn't belong to 
anyone. Would you go back through that for me, please?
    Mr. Lewis. Yeah. What I was talking about there was the 
resources that people need to live, the most important ones, 
come initially just from the earth itself. And my point was at 
the beginning, if we sort of mentally put ourselves back, you 
might say, just hypothetically at the beginning of the world, 
no particular piece of the earth belongs to any particular 
person naturally.
    Mr. Weber. And yet you recognize----
    Mr. Lewis. We acquire things.
    Mr. Weber. You recognize from Biblical days that there was 
properties bought and sold, for example. So some time back 
thousands of years ago, that process began.
    Mr. Lewis. Because of facts about human nature, the fact 
that we tend to take care of things more effectively when we 
own them and----
    Mr. Weber. Right.
    Mr. Lewis [continuing]. People quarrel over things, it 
makes sense----
    Mr. Weber. And that is where----
    Mr. Lewis [continuing]. That we parcel out.
    Mr. Weber. Well, that is where I was going to go, I mean, 
because ownership, actually, you know, I would submit makes 
people be better stewards of their property.
    Mr. Lewis. Absolutely. But I was making an analogy to 
territory itself, that particular governments are better 
stewards of their territory and of the order of their territory 
than having no particular governments and borders and so forth.
    Mr. Weber. So in your estimation, is Hungary being a good 
steward of their borders?
    Mr. Lewis. From what I can tell, Hungary is doing what they 
think is necessary to protect their national security.
    Mr. Weber. That is what I want to hear, especially with our 
Ambassador sitting here.
    Dr. Shiffman, you said that opportunity for economic growth 
for all of these refugees or immigrants coming in, but don't 
you think that perhaps it is going to be an overburdening on 
the infrastructure? I mean, you talked about an opportunity for 
economic growth. Is there no down side that you see? I am 
talking about economically now.
    Mr. Shiffman. Yeah. Right. In terms of sort of just per 
capita and GDP growth, it most certainly is a net benefit, but 
it might not be a benefit for everybody. So there will--I will 
give you an example. And we face this in the United States with 
having open borders and free trade and stuff like that. So 
there are certainly individuals who will lose out on an 
economic opportunity as other people come in and replace them 
and----
    Mr. Weber. Is there a timeframe involved? I mean, they are 
not going to get that economic benefit in the first 6 months or 
a year, right? They are going to be really overburdened for a 
while?
    Mr. Shiffman. So what I would do is go back to the points 
we have been talking about, is knowing who is crossing the 
border. I imagine there are some folks who are highly trained, 
highly educated who will be able to contribute to the economy 
right away. There might be other folks who, you know, it might 
take a generation.
    Mr. Weber. Well, let me address part of that open borders. 
You mentioned the United States actually shares--has the 
responsibility of--I come from Texas.
    Mr. Shiffman. Yes, sir.
    Mr. Weber. I was in the Texas legislature, and my second 
term I was the vice-chair of the Borders Committee, and I can 
tell you things about our southern border. Of the 2,000 miles 
the United States has with Mexico, Texas has about 1,167 miles, 
almost two-thirds of them, and it would scare you.
    The years that I was there, the 4 years I was there, the 
Texas legislature put $200 million in border security; 
unfortunately, the United States did not. After I left, they 
came in and put $400 million the first term I was gone, and the 
last term they put over $500 million in. So I want to make that 
plug for not only the great state of Texas, but to point out 
the country of the United States is not really shouldering up 
under the responsibility of securing our southern border. Okay.
    It is interesting to me, and I am trying to read my notes 
while I am talking, one of you said that maybe the European 
Union ought to shoulder up under that burden and pony up some 
money. Was that you, Dr.--was it you?
    Okay. How do you expect to make that happen if we can't get 
the United States to do that?
    Mr. Shiffman. I don't intend to make it happen. I am just 
suggesting to the committee some things that you might want to 
take up in your conversations.
    Mr. Weber. That is a battle that we might not be able to 
win.
    Mr. Shiffman. I understand.
    Mr. Weber. And then, let's see. Dr. Shiffman, you also said 
in your discourse with Congresswoman Frankel that the 
humanitarian component of the crisis has to come up first, but 
at what point--you were talking about--she was talking about 
people being taken in, you know, that they were--I mean, I am 
not going to put words in Lois's mouth, but I think she said 
they were all pretty friendly and nice, most of them, you know, 
insinuating that we ought to be willing to take some of them in 
was, I guess, where she was going with that.
    But at what point does the humanitarian concept of our 
citizens take precedence because of the danger? Would you speak 
to that?
    Mr. Shiffman. Sure. The precedence of our citizenship 
should--our citizens come first.
    Mr. Weber. Should be first and foremost.
    Mr. Shiffman. First and foremost, yes, sir.
    Mr. Weber. Okay. How do you balance those two?
    Mr. Shiffman. Through this political process that we are 
taking part in here.
    Mr. Weber. Okay. Are you aware of about 3:20 today, CNN is 
reporting that the United States intelligence are saying that 
they believe a bomb brought the airliner down in Egypt, a bomb 
onboard the plane? So when you talk about people coming over 
and either assimilating into their--you, know, there was--I 
don't remember which one said that there was a problem that 
maybe terrorists were being embedded in the refugee stream, or 
that once they got there, they would radicalize others in the 
nation.
    Well, I think what we are seeing is the effect of some 
radicalization, some terrorism right now. Do you know how many 
men and women and children lost their lives on that airliner? 
It is about 230 something, wasn't it?
    So I am just struggling with the idea that somehow we have 
to focus on the humanitarian crisis to the exclusion of our own 
citizens' safety. That is just a huge concern to me.
    Mr. Chairman, I will yield back.
    Mr. Rohrabacher. Thank you very much. Just a few thoughts--
and, Mr. Sires, do you have a 1-minute or so, 2-minute closing 
statement?
    Mr. Sires. Well, I just wanted----
    Mr. Rohrabacher. Use this microphone.
    Mr. Sires. I just wanted to thank you. And I am still very 
concerned about the long-term impact of the constant refugee 
flow into Europe. I think it is going to disrupt some of these 
countries, because they just don't have the money or the 
ability to take in this population.
    So I think we have to just keep an eye on this situation, 
because eventually we are going to have to make sure that the 
security of this country comes first.
    Mr. Rohrabacher. Well, thank you very much. Thank you for 
the witnesses.
    And just a few thoughts, that the massive influx and out-
of-control influx that we see in Europe is not simply a 
European phenomena, although I believe that one of the factors 
that we have to look at, historic factors in Europe, that 
Europe lost tens of millions of young men in World War I and 
World War II. And during that time period, those young men 
disappeared from the population equation, thus, the children of 
the people who were prevented from having children because they 
died at a younger age, and their children don't exist.
    And you go right down how many people exist, Europe would 
probably have many more, maybe hundreds of millions, maybe 100 
million more people had those people killed in these vicious 
wars not been eliminated from the equation. And thus, we see a 
Europe that is underpopulated now from what it would have been 
except for war. During that time period, there wasn't a massive 
war of extermination going on in the Middle East, and in the 
Muslim parts of the world.
    That is bound to--you also see the effect of abortion on 
Europe. Abortion has been a major factor in limiting the 
population in Europe. And, again, the babies that have been 
aborted in the last 50 years don't have children who don't have 
children, and thus you have a shrinkage of population going on. 
With that, we face a population where we have people who were 
having families of six and seven and eight people. And when you 
have societies juxtaposed like that, you are going to have--it 
is going to have an impact, and we are seeing it now.
    And so with that said, that massive influx, however, should 
not be looked at as only a possible European situation. In the 
United States, I believe this influx was started when Merkel 
decided that she would then change the policy, and anybody who 
could get to Germany, they were going to take them in. Well, 
when that word went out, all of a sudden trying to stop the 
flow of immigrants illegally into Europe became untenable. That 
is the same dynamic at play in the United States.
    When the people, the poor people of the world figure out 
that they can come here, and once they get here, they are going 
to be able to get a job, they are going to be able to get 
government benefits just like everybody else, there will be the 
out of control massive inflow that Europe has had right now, to 
the point that it might change or undermine the basic cultural 
elements that unite all of us. And that is a great threat.
    We should be taking a lesson here, because whether it is--
and I am not just talking about--most people--unfortunately, 
the immigration debate has been focused on Mexico, and this is 
not a Mexican problem. This is an idea that once the word goes 
out to the world, we have a major illegal immigration from 
China now and in Asia, we also have people from all over Latin 
America. And if we put out the same message that Merkel put out 
for her country, we will have the same out of control influx 
into our society, and we are on the edge of that right now. So 
let us learn the lesson of Europe.
    Thank you for joining us and giving us your insights, both 
philosophically and practically. And with that said, this 
hearing--one moment. I am going to announce one thing. At the 
close of the hearing, I thought I would announce tomorrow I 
will be submitting a piece of legislation that suggests that 
those people in Middle Eastern countries that are now suffering 
from radical Islamic terrorism, those countries in which 
Christians have been targeted for genocide, that when it comes 
to immigration and refugee status, that those Christians, who 
are targeted for genocide, will have priority over other people 
in trying to find refuge in the United States. I will be 
dropping that bill tomorrow.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
